       U.S. Department of
                                                  Memorandum
       Transportation
       Office of the Secretary
       of Transportation
       Office of Inspector General


Subject:     INFORMATION: Audit Termination                    Date:    July 15, 2013
             Notification:
             Improper Payment Oversight in
             FHWA ARRA Programs
             Project No. 13U3001F000

  From:     Louis C. King                                   Reply to
                                                            Attn. of:   JA-20
            Assistant Inspector General for Financial and
              Information Technology Audits

    To:      Federal Highway Administrator


       On April 30, 2013, the Office of Inspector General initiated an audit of improper
       payment oversight in the Federal Highway Administration’s (FHWA) American
       Recovery and Reinvestment Act (ARRA) 1 programs. Our objective was to evaluate
       whether FHWA had adequate internal controls to prevent and detect improper
       payments to ARRA grant recipients.

       Due to other higher priority work demands, we are terminating the audit of improper
       payment oversight in FHWA’s ARRA programs, effective immediately. Given our
       commitment to oversight of FHWA’s improper payments, we may re-announce this
       audit at a later date.

       We appreciate the courtesies and cooperation of FHWA representatives during our
       audit. If you have any questions, please do not hesitate to contact me at
       (202) 366-1407, or Joann Adam, Program Director, at (202) 366-1488.

                                                    #

       cc: DOT Audit Liaison, M-1
           FHWA Audit Liaison, HAIM-13

       1
           Pub. L. No. 111-5, February 17, 2009
